<html>
<title></title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                
                          [H.A.S.C. No. 115-118]

                         U.S. STRATEGY IN SYRIA

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 26, 2018

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-474                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------

                                     
  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  VICKY HARTZLER, Missouri, Chairwoman

K. MICHAEL CONAWAY, Texas            SETH MOULTON, Massachusetts
MATT GAETZ, Florida                  TOM O'HALLERAN, Arizona
JIM BANKS, Indiana                   THOMAS R. SUOZZI, New York
LIZ CHENEY, Wyoming                  JIMMY PANETTA, California
AUSTIN SCOTT, Georgia
              Elizabeth Conrad, Professional Staff Member
                 Jamie Jackson, Deputy General Counsel
                          Justin Lynch, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Chairwoman, 
  Subcommittee on Oversight and Investigations...................     1
Moulton, Hon. Seth, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2

                               WITNESSES

Karem, Robert Story, Assistant Secretary of Defense for 
  International Security Affairs, Department of Defense; and BGen 
  Scott F. Benedict, USMC, Deputy Director Politico-Military 
  Affairs, Middle East, Joint Staff J-5..........................     4

                                
                                APPENDIX

Prepared Statements:

    Hartzler, Hon. Vicky.........................................    27
    Karem, Robert Story, joint with BGen Scott F. Benedict.......    32
    Moulton, Hon. Seth...........................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Suozzi...................................................    43
                        
.                        
                        U.S. STRATEGY IN SYRIA

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                     Washington, DC, Wednesday, September 26, 2018.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2123, Rayburn House Office Building, Hon. Vicky Hartzler 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
      MISSOURI, CHAIRWOMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mrs. Hartzler. The Oversight and Investigations 
Subcommittee convenes this afternoon to take testimony on the 
U.S. strategy on Syria. Just weeks ago, our Nation commemorated 
the somber anniversary of the 2001 terrorist attacks. Among the 
many consequences of that strike on the United States was the 
increased recognition of the dangers posed by a violent 
ideology targeting our Nation and its allies and partners. 
Those dangers remain.
    For decades, the Syrian regime has been known for its 
barbarity and support for terrorism. But 5 years ago, the 
Islamic State of Iraq and Syria [ISIS] emerged from the 
remnants of al-Qaida in Iraq. ISIS killed and pillaged.
    The goal of ISIS was to develop Syria as a base of 
operations for a global terrorist network. ISIS had some 
initial success. The group quickly seized territory, including 
in eastern Syria. And while the United States continued to 
speak out against the atrocities of the Syrian Government, ISIS 
posed the possibility of a ruthless anti-American terrorist 
group controlling a large and important region.
    Therefore, the United States assisted some of those 
fighting ISIS. There have been some important victories. Since 
March of 2017, significant territory has been liberated from 
ISIS. Nonetheless, it continues to pose a threat. The 
Department of Defense has declared that ISIS is well positioned 
to rebuild. ISIS could recapture lost territory. The goal of 
the United States is to prevent this possibility, but it is 
essential that our Nation carefully calibrate its response.
    The Syrian situation is extraordinarily complex. Turkey, 
Iraq, Israel, and Jordan are profoundly affected. The fact that 
Russia and Iran vigorously support the Assad regime also 
greatly complicates our efforts. In recent weeks, the 
administration has suggested that some U.S. military forces 
will remain in Syria. Furthermore, while Assad, Russia, and 
Turkey contemplate military activity in and around Idlib around 
the last week, press reports have discussed how the U.S. might 
respond if chemical weapons are used again.
    Today, we will hear more about these topics. We will 
consider the administration's strategic objectives in Syria and 
the relevant authorities and resources required to achieve 
them. We will hear about efforts to achieve a political 
resolution and the status of U.S. counterterrorism efforts. We 
will also consider the humanitarian crisis in the region and 
the reestablishment of governance in areas liberated from ISIS.
    In a moment, I will turn to Ranking Member Moulton for 
introductory comments and then introduce today's witnesses, but 
I want to remind members that this hearing is unclassified, and 
when we conclude, we will recess briefly and move upstairs to 
room 2216. And our witnesses will join us there, and we will 
reconvene for an opportunity to discuss classified information 
and receive additional details from the witnesses.
    I will ask members to move promptly to the second location 
at the appropriate time. And so, with this administrative note 
out of the way, I now recognize Ranking Member Moulton for his 
introductory comments.
    [The prepared statement of Mrs. Hartzler can be found in 
the Appendix on page 27.]

     STATEMENT OF HON. SETH MOULTON, A REPRESENTATIVE FROM 
 MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mr. Moulton. Thank you, Madam Chairwoman. Thank you for 
scheduling this hearing--for rescheduling the hearing due to 
the hurricane, and thank you to our witnesses for being here 
with us this afternoon. Today, we are seeking clarity on the 
Trump administration's strategies for achieving U.S. political 
and military objectives in Syria. While long overdue, today's 
discussion is timely, given heightened intervention in the 
region by the Syrian regime's top allies, Russia and Iran. Just 
this Monday, the Russian Defense Ministry announced plans to 
equip Syrian air defense forces with the S-300 antimissile 
system, a move characterized by U.S. National Security Advisor 
John Bolton as a, quote, ``significant escalation,'' end quote, 
in the 7-year civil war.
    In August, Iranian Defense Minister Amir Hatami confirmed 
Iran's commitment to the Assad regime, affirming Iran would 
have a, quote, ``presence, participation, and assistance,'' end 
quote, in the reconstruction of Syria. Increasing military 
escalation by Russia in Idlib province, which has been 
temporarily averted by a Russia-Turkey agreement, threatens to 
exacerbate an already devastating humanitarian crisis, with 
over 400,000 Syrians dead and over 6 million displaced.
    My question to the Trump administration is this: What is 
your strategy? Moreover, we don't even know what your long-term 
objectives are. I am alarmed that the President's statements 
regarding his strategy on Syria have been so overwhelmingly at 
odds with statements from his senior Cabinet officials. Earlier 
this year, President Trump stated that the United States would 
be coming out of Syria, quote, ``like very soon,'' end quote. 
And that we should, quote, ``let other people take care of it 
now,'' naively asserting that the ongoing conflicts in Syria 
and the resulting humanitarian crisis there will no longer be 
of concern to the United States.
    In April, after ordering missile strikes in Syria, the 
President tweeted, quote, ``mission accomplished,'' although 
the accomplishment remains unclear. In an abrupt reversal, of 
course, senior administration officials recently walked back 
previous plans of a, quote, ``imminent pull-out of U.S. forces 
in Syria.''
    Earlier this month, U.S. Ambassador to the United Nations 
Nikki Haley warned Russia and Iran of dire consequences if they 
continue military strikes in Idlib. But what exactly does this 
mean? This week, John Bolton suggested that the United States 
envisioned a permanent presence in Syria to counter Iran while 
Secretary Mattis insisted our forces are only there to counter 
ISIS. When asked about the inconsistency, Secretary Mattis told 
press they are on the same sheet of music. But it is clear this 
is not the case.
    I am also disappointed that we will not have an opportunity 
today to directly engage with the Department of State to 
examine the administration's plan to support a political 
settlement in Syria.
    U.S. Special Representative for Syria James Jeffrey 
recently called for a, quote, ``major diplomatic offensive.'' 
However, specific details have been sparse. Defeating terrorist 
groups with no long-term plans for political stabilization will 
only serve to perpetuate the cycle of violence and of 
repeatedly sending U.S. troops into conflict zones.
    It troubles me that much of what we accomplished in Iraq 
has been undone because we did not have a solid comprehensive 
plan to stabilize the region and secure the peace. I will add 
that this is not about partisan politics. I was equally 
critical of the previous administration for what I viewed as a 
lack of clarity in their strategy on Syria.
    I have met with troops fighting on the ground in Syria and 
have asked them earnestly what they are fighting for, only to 
find that many of them do not have an answer. It is unfair to 
our troops to continuously ask them to put their lives on the 
line without a mission or clear objectives. Although I did not 
agree with the war in Iraq, at least I knew what the plan was 
when I went out on patrol at night as a Marine infantry 
officer.
    In today's hearing, we will attempt to secure answers to an 
array of open questions, such as what are the capabilities and 
activities of our partners in the region, including the U.S.-
backed Syrian Democratic Forces. I look forward to hearing what 
progress, if any, the administration has made towards putting 
forward a comprehensive strategy on Syria.
    Thank you, and I yield back.
    [The prepared statement of Mr. Moulton can be found in the 
Appendix on page 29.]
    Mrs. Hartzler. Thank you.
    So I am pleased to introduce our witnesses: Mr. Robert 
Story Karem, he is the Assistant Secretary of Defense for 
International Security Affairs; and U.S. Marine Corps Brigadier 
General Scott Benedict, he is the Deputy Director of Political-
Military Affairs for the Middle East with the Joint Staff.
    So, Mr. Karem, we will begin with you.

STATEMENT OF ROBERT STORY KAREM, ASSISTANT SECRETARY OF DEFENSE 
FOR INTERNATIONAL SECURITY AFFAIRS, DEPARTMENT OF DEFENSE; AND 
BGEN SCOTT F. BENEDICT, USMC, DEPUTY DIRECTOR POLITICO-MILITARY 
             AFFAIRS, MIDDLE EAST, JOINT STAFF J-5

    Secretary Karem. Thank you. Chairwoman Hartzler, Ranking 
Member Moulton, and distinguished members of the committee, 
thank you for inviting us to participate in this hearing today. 
Because the hearing is open, I will not be able to discuss many 
of the details of our military operations in Syria, as doing so 
could undermine these operations and put our forces at risk. We 
will be very happy to discuss some of these issues in closed 
session, but must err on the side of caution to avoid 
disclosing classified information about our sensitive 
activities in this setting.
    The U.S. Government's objectives in Syria remain unchanged. 
In Syria, the United States seeks to secure the enduring defeat 
of ISIS and al-Qaida and its affiliates, deter the use of 
chemical weapons, and counter Iran's malign destabilizing 
influence. The United States also seeks a peaceful resolution 
of the multifaceted conflict in Syria in a manner that protects 
U.S. interests, preserves a favorable regional balance of 
power, protects our allies and partners, and alleviates human 
suffering.
    The Defense Department's role in Syria is limited. We are 
pursuing the enduring defeat of ISIS with a relatively small 
U.S. military footprint, and a ``by, with, and through'' 
strategy that relies on local partners. While we are not 
intervening in the Syrian civil war because our combat 
operations target ISIS, this underlying conflict inevitably 
affects our efforts.
    The Assad regime, with Russian and Iranian backing, has 
retaken significant swaths of territory from the moderate 
Syrian opposition, which it subjects to violent repression. 
This behavior imperils international efforts to facilitate an 
enduring, peaceful resolution to the underlying conflict. 
Although our military efforts and those of our local vetted 
partners have hastened the territorial defeat of ISIS and 
advanced U.S. national security interests, we believe that 
broader U.S. objectives are most effectively pursued through a 
negotiated political resolution of the Syrian conflict and 
humanitarian crisis, consistent with U.N. [United Nations] 
Security Council Resolution 2254.
    As we have previously emphasized, we look to our colleagues 
at the State Department to work in parallel with the United 
Nations and our international partners to forge a lasting 
settlement of the Syrian conflict that includes full 
representation for all Syrians, including the people of 
northeast Syria, now recovering from ISIS occupation.
    The U.S. Government remains committed to the critical 
diplomatic efforts underway to end the war on terms that 
protect the rights of Syria's people, and enable the safe, 
voluntary, and dignified return of internally displaced persons 
and refugees to their homes. The recent appointments of 
Ambassador Jim Jeffrey as the State Department's Special 
Representative for Syria Engagement and Joel Rayburn as Deputy 
Assistant Secretary of State for the Levant highlight the 
renewed focus on diplomatic engagement. The Defense Department 
is eager to support their critical efforts.
    In close coordination with and under the authorities 
granted by the Congress, the Defense Department has made 
significant progress since 2014 when ISIS swept across Iraq and 
Syria and terrorized hundreds of thousands of civilians.
    My staff briefs the HASC [House Armed Services Committee] 
subcommittee staff, this committee's staff, on our activities 
on a regular basis, and we appreciate these opportunities to 
solicit input and feedback from the committee as we work 
through these difficult and complex challenges. As you know, 
coalition-backed efforts have contributed to the liberation of 
more than 99 percent of the territory and more than seven and 
one-half million people from ISIS control in Iraq and Syria. 
Despite this progress, we assess that even after the defeat of 
the physical caliphate, ISIS remains stronger now than its 
predecessor, al-Qaida in Iraq, was when the United States 
withdrew from Iraq in 2011.
    Tough fighting remains in the lower reaches of the Middle 
Euphrates River Valley, and our hard-won gains in Iraq and 
Syria remain vulnerable. The enemy is adaptive. Even though 
offensive operations against the last pocket of ISIS-held 
territory in Syria are underway, ISIS has begun its transition 
into an underground insurgency. A sustained, conditions-based 
U.S. presence will enable us to pressure the terrorist 
insurgency and prevent ISIS' resurgence while simultaneously 
facilitating diplomatic efforts to resolve the conflict. We 
seek to avoid telling the enemy when we will withdraw or 
leaving before the job is done. We do not want to repeat the 
mistakes that created the conditions for ISIS' emergence in the 
first place.
    We are not alone. We are working by, with, and through a 
range of partners to defeat ISIS. In Syria, we are vetting, 
training, and equipping local Syrian forces, such as the multi-
ethnic Syrian Democratic Forces, who are leading combat 
operations against remaining ISIS holdouts. We are also 
supporting vetted internal security forces drawn from local 
populations to hold and secure ISIS-liberated territory.
    The 79-member Global Coalition to Defeat ISIS remains 
committed to the challenges in both Syria and Iraq and is 
adaptive to ISIS' evolving ambitions and tactics. Our allies 
and partners are increasingly sharing the burden for ongoing 
Defeat ISIS operations, stabilization, and humanitarian 
assistance.
    Since April, the United States Government has secured 
approximately $785 million in contributions committed from 
coalition partners to UNDP's [United Nations Development 
Programme's] funding facility for stabilization efforts in 
areas liberated from ISIS in northeast Syria, including 70 
million euros from France, $18.6 million from the United 
Kingdom, and 10 million euros from Germany towards explosive 
remnants clearance, plus 235 million euros in humanitarian 
support from Germany. We applaud these contributions and 
encourage our partners to seek additional ways to step up their 
support for stabilization and diplomatic efforts to ensure a 
safe and stable Syria.
    In eastern Syria, the United States Agency for 
International Development, USAID, and the State Department are 
leading early recovery and stabilization efforts designed to 
consolidate military gains and stabilize liberated areas. With 
support from DOD [Department of Defense], State and USAID are 
addressing humanitarian needs, removing ISIS-placed mines and 
IEDs [improvised explosive devices], supporting local early 
recovery efforts, and helping establish the security, economic, 
and political conditions that will allow for the safe and 
voluntary return of displaced Syrians to their homes.
    The ability to co-deploy State Department and USAID 
civilians next to our military forces to plan and monitor these 
activities alongside local partners remains a key aspect of our 
success. In northern Syria, the United States is working with 
our NATO [North Atlantic Treaty Organization] coalition partner 
Turkey to ensure stability and security in the region. We 
remain committed to a sustainable arrangement in Manbij that 
ensures continued stability and addresses Turkish concerns. The 
United States is working with Turkey to promote local 
governance and security elements acceptable to all parties, 
including the people of Manbij. We respect Turkey's legitimate 
national security concerns and are aligned in seeking an end to 
the Syrian conflict in accordance with U.N. Security Council 
Resolution 2254 that respects the rights of all Syria's 
citizens and addresses the humanitarian crisis caused by this 
conflict.
    We welcome recent reports of a Turkish-Russian agreement to 
form a demilitarized zone in Idlib, but nevertheless remain 
gravely concerned over the potential for a major military 
offensive by the Syrian regime, backed by Russia and Iran, that 
could increase the prospect for the use of chemical weapons and 
put civilians at grave risk. Turkey shares these concerns.
    It remains to be seen whether Turkey's efforts to dissuade 
Russia from supporting a major regime offensive will hold, and 
we note that previous ceasefire agreements have been used as an 
opportunity for Russia, Iran, and the Syrian regime to rest, 
refit, and resume an offensive whenever it suits them.
    Putin's continued support for the regime and willingness to 
partner with Iran and Syria reveals the stark divergences 
between Turkish and Russian objectives in Syria. A regime 
offensive in Idlib would represent a dangerous escalation of 
the conflict and will threaten, not facilitate, diplomatic 
efforts to end the conflict.
    Our position on the Syrian regime's use of chemical weapons 
remains unchanged. As we have demonstrated, we will respond 
swiftly and appropriately to further use of chemical weapons by 
the Syrian regime, to defend the international prohibition 
against the use of such weapons and to deter further use. We 
urge the regime and its Russian sponsors to refrain from using 
chemical weapons or risk the international consequences of 
doing so.
    Our resolve is shared by the United Kingdom and France, and 
we encourage other international partners to join our 
diplomatic and political efforts to deter Bashar al-Assad from 
using these weapons.
    We continue to support international efforts to attribute 
responsibility for chemicals weapons use, namely the decision 
taken by the Conference of States Parties to the Chemical 
Weapons Convention to establish a new arrangement to identify 
perpetrators of chemical weapons attacks in Syria. This 
decision counters Russia's repeated use of its veto power at 
the United Nations Security Council to dismantle the impartial 
U.N. and Organization for the Prohibition of Chemical Weapons 
joint investigative committee mechanism, which found the Assad 
regime responsible for chemical weapons attacks four times, 
including the April 2017 chemical weapons attack in Khan 
Shaykhun that killed and injured hundreds of civilians.
    We remain concerned by Iran's significant military, 
paramilitary, and proxy involvement in Syria. Iran's 
introduction of sophisticated military equipment into Syria 
along with the entrenched Iranian and Hezbollah presence there, 
directly threatens important partners like Israel and Jordan, 
and risks dangerously escalating the tensions in the region. 
Iran is also no friend of the Syrian people and if its behavior 
in Iraq is any indication, its militia proxies and aggressive 
agenda will only further marginalize Syria's Sunni population, 
inflame tensions, and sow seeds of further radicalism.
    Despite these challenges, the United States is taking steps 
to strengthen our partners and create opportunities to counter 
Iran's destabilizing activities. We are working closely with 
the Department of State to expose Iran's regional destabilizing 
influence through the Iranian Materiel Display where 
representatives from over 66 nations have viewed Iran's 
proliferation of advanced conventional weapons. We continue to 
shore up the defenses of our Israeli and Gulf Arab partners 
while working to improve their military defense capabilities 
against a range of Iranian threats.
    We continue to take steps to reinforce vulnerable and 
fragile regional partners. We maintain a regional force posture 
and military plans designed to deter and, if necessary, respond 
to aggression. We are not seeking war with Iran. That said, we 
will take steps to defend ourselves and work with regional and 
global partners and allies to address the full range of Iran's 
destabilizing and malign activities.
    DOD's engagement with Russia in Syria remains focused on 
military deconfliction efforts, conducted via military 
channels, to prevent miscalculations and accidents involving 
our respective forces which operate in close proximity on the 
ground and in the air. Although this tactical deconfliction has 
been a success, unfortunately, Russia's overall behavior has 
been at odds with our core objectives. Russia has enabled 
Assad's use of chemical weapons and continues to hamper efforts 
to achieve a lasting political settlement to the conflict.
    Russia has recently launched a concerted disinformation 
effort, a campaign to discredit the United States and our 
international partners, flooding the media with fake stories to 
sow doubt and confusion about the reality of the situation in 
Syria and to hide Russia's role in the Assad regime's campaign 
of murder and brutality. The United States is working with its 
partners across the world to expose and counter Russia's 
propaganda and disinformation campaigns.
    Finally, let me just thank the Congress for your advice, 
funding, and the authorities provided to the Department of 
Defense in this endeavor. Although the scope of our military 
activities and our mandate is narrow, we have together dealt 
with the scourge of ISIS and will together do right by our 
troops in ensuring its enduring and lasting defeat. Thank you.
    [The joint prepared statement of Secretary Karem and 
General Benedict can be found in the Appendix on page 32.]
    Mrs. Hartzler. Thank you very much, Mr. Karem.
    And now let us turn to General Benedict.
    General Benedict. Chairwoman Hartzler, Ranking Member 
Moulton, and distinguished members of the committee, good 
afternoon, and thank you for the introduction earlier.
    I am Brigadier General Benedict from the Joint Staff Middle 
East Directorate, and I appreciate the opportunity to take your 
questions regarding aspects of our operations in Syria.
    Mrs. Hartzler. Thank you very much. I would like to start, 
before we get into specific questions, that we have a map here 
in front of us, and I appreciate that. Could you kind of go 
over with us what things you would like to point out about this 
map? Are you aware of the map?
    Secretary Karem. I do not know that either of us have seen 
the map.
    Mrs. Hartzler. Oh, okay.
    General Benedict. I have seen the map. I had it on the 
place mat for the secure setting. But I think I can tell you 
just from having looked at that map quite often, I think a 
couple key points on there would be: down in the lower portion, 
there's an area called Al-Tanf. You see sort of a half circle 
on the border between Jordan and Syria. Yes, ma'am, in blue 
there. That is an area where we have got a U.S. presence with a 
partner force. And then you have also got an area that is 
shaded up in the northeast that is orange. That is the area 
where we partner with the SDF [Syrian Democratic Forces] 
forces. And you will see down in the lower right, that is an 
area down close to the border with Al Qa'im and Albu Kamal. 
That is sort of the final portion of the MERV [Middle Euphrates 
River Valley] where the physical caliphate has shrunk, that 
tiny little orange sliver.
    You have probably seen maps earlier where the caliphate 
spread much over Iraq into Syria, all the way down toward the 
Baghdad area. That is all that is left is that tiny orange 
portion. And then, if you go up to the top of the map, the 
brown area, that is the area in the vicinity of Manbij. The 
green area located there is Idlib. I am sure we will have an 
opportunity to talk about a few of these places today.
    Mrs. Hartzler. Okay. Appreciate that. So, Mr. Karem, while 
speaking about U.S. policy in Syria recently, Ambassador Jim 
Jeffrey stated that reducing and ultimately eliminating Iran's 
military presence in Syria is a primary U.S. objective. Can you 
confirm it is a primary U.S. objective to reduce and eliminate 
Iran's military presence and expound on what our troops are 
doing to carry out this mission?
    Secretary Karem. I think Ambassador Jeffrey, Ambassador 
Bolton, and other senior administration officials have spoken 
at length about how concerned we are about the threat that Iran 
poses to the region, how destabilizing its activities inside 
Syria have been. It is clearly a high priority of the United 
States to counter Iran's malign activities throughout the 
region, including in Syria. I would disaggregate, however, our 
overall U.S. policy objectives from our military activities.
    Our military operations in Syria are squarely focused 
because of the authorities we have been provided against ISIS 
and al-Qaida. It is, of course, the case that our presence in 
Syria, our military presence, has residual benefits. Benefits 
for our diplomats who are trying to seek and negotiate an end 
to the conflict, and residual benefits because it can help 
deter activities from other adversaries. But the purpose of our 
military operations, the object of our military operations is 
very squarely focused on the ISIS fight.
    I think that I would also note that, just analytically, 
Iran's presence and malign activities make it increasingly 
unlikely that we will see an enduring political solution to the 
crisis. We believe such a political solution is going to be 
necessary to achieve the conditions that will allow us to 
secure an enduring defeat of ISIS to prevent the resurgence of 
ISIS or another similar terrorist organization.
    Mrs. Hartzler. That is concerning, that comment right 
there. In your testimony, you said that we are working closely 
with the Department of State to expose Iran's regional 
destabilizing influence through our Iranian Materiel Display. 
Can you explain a little bit more what that entails?
    Secretary Karem. Sure. And I would--we, at Bolling Air 
Force Base, or Joint Base Bolling, we have set up a display of 
materiel captured from a number of battlefields that our 
partners have provided us to help explain and expose the types 
of activities Iran is engaged in. We very much welcome Members 
of Congress coming out to see this display. We have brought a 
number of representatives from countries around the world. We 
think this helps to demonstrate the very activities that we 
seek international diplomatic support to contest, violations of 
U.N. Security Council resolutions that these weapons and 
materiel I think really bring home.
    Mrs. Hartzler. So, based on your statement a minute ago, 
you are saying basically, and maybe General Benedict can answer 
this, that the Department of Defense does not have any role 
really other than just ancillary to countering Iran and Syria, 
you are just solely focused on ISIS, or is there anything that 
you are doing as a DOD role regarding Iran?
    General Benedict. In Syria, Chairwoman, our role is to 
defeat ISIS. That is it. And as Mr. Karem mentioned, there is a 
secondary benefit to our presence on the ground there. 
Certainly, being on the ground and creating stabilized 
situation limits the freedom of maneuver of anybody who has got 
malign activities. That includes Iranian proxies as well as 
some of the violent extremists.
    Mrs. Hartzler. Great. So what are the administration's 
current counterterrorism objectives in Syria?
    Secretary Karem. Our principal primary counterterrorism 
objectives are to secure the enduring defeat of ISIS and al-
Qaida and other associated terrorist groups. And I can talk a 
bit in closed session about some of the activities, but this 
involves both U.S. unilateral activities as well as the support 
to local partners who are doing much of the fighting on the 
ground to retake territory from these organizations and to kill 
and capture ISIS fighters.
    Mrs. Hartzler. Okay. How will you measure the destruction 
of ISIS besides just how much territory the group controls, 
because obviously now it does not control very much? So how are 
you measuring their impact?
    Secretary Karem. So there are a range of metrics that we 
would look at, and it is not just a job for the Department of 
Defense, but for the intelligence communities and the whole of 
government. I think we have looked at the territory they 
control, the assets that they have, the number of fighters and 
supporters, their freedom of movement, the extent to which 
their ideology and strategic communications resonate, both 
within local populations and across the region, and other more 
ambiguous factors. But in terms of the sheer numbers, as I 
said, we do measure their strength as still being fairly 
significant.
    Mrs. Hartzler. And the last question I have here before I 
go to Ranking Member Moulton: Does the administration have a 
plan to prevent the reemergence of ISIS?
    Secretary Karem. The United States military objectives are 
designed to destroy the physical caliphate and to set the 
conditions for a diplomatic solution, an economic solution, and 
social solutions that will allow for the enduring defeat of 
ISIS and to prevent its resurgence. The military can only play 
one part in that equation, which is why we are so encouraged by 
the renewed diplomatic offensive from Ambassador Jim Jeffrey. 
But ultimately this will require our partners joining us, and 
it will require the Russians, the Iranians, and the Syrian 
regime being willing to sit down at the table with members of 
the Syrian opposition to bring about an end to the conflict in 
a manner that creates more stable, more respectful conditions 
for Syria's people.
    Mrs. Hartzler. Very good. Ranking Member Moulton.
    Mr. Moulton. Thank you, Madam Chairwoman. And just to 
emphasize how bipartisan this hearing is and our concerns are 
with regard to what is going on in Syria, many of your 
questions are written down right here on my list of questions. 
So we share--we did not share notes prior to the hearing, but 
we have a lot of common concerns.
    Mr. Karem, I was wondering if you could answer, does the 
2001 and 2002 AUMF, Authorizations for the Use of Military 
Force, allow operations against Iran?
    Secretary Karem. The 2001 AUMF is quite clear that it 
applies to al-Qaida and associated groups. And the 2002 AUMF 
has been focused on Iran. We are not conducting operations 
against Iran, have not been asked to conduct operations against 
Iran. That said, I would note that, wherever we are in the 
world, our military forces have the right to self-defense in 
the event that we are attacked. But under none of those AUMFs 
are we envisioning or conducting operations against Iran.
    Mr. Moulton. Right, and that seems consistent with what 
Secretary Mattis said when he stated quite unequivocally that, 
quote, ``Right now our troops inside Syria are there for one 
purpose, and that is under the U.N. authorization about 
defeating ISIS.'' That has nothing to do with Iran. He has made 
that very clear.
    Now, you said in the answer to the previous question, we 
have to disaggregate our overall strategy, which includes 
countering Iran's influence in the region, from our military 
presence on the ground. Is that correct?
    Secretary Karem. I think I was making the point that I 
think we need to disaggregate legal authorities questions and 
that there are many tools we use to contest Iran across the 
region. There are aspects of our military operations or 
presence that can be useful in countering Iran, but we are not 
conducting military operations against Iran, is the point I was 
trying to make.
    So, as General Benedict and I have said, our presence in 
certain places can constrain Iran's freedom of maneuver. It can 
empower our diplomats to put more pressure on Iran, but our 
purpose in being there and our military operations are not 
being conducted per se against Iran.
    Mr. Moulton. So if we are going to counter Iran and we have 
an authorization to do so, we might have operations against 
Iran, or we might simply have troops in the region. But either 
actually requires an authorization. I mean, if we are going to 
conduct operations against North Korea, we are going to get a 
congressional authorization to do so before we send troops into 
North Korea, correct?
    Secretary Karem. I would defer to the lawyers as to the 
precise mechanics----
    Mr. Moulton. Well, you are the best we got for lawyers 
right now. We are asking you the questions. Because the problem 
is that National Security Advisor John Bolton stated that the 
United States intends to keep an indefinite military presence 
in Syria until Iran withdraws its forces. That to me sounds 
like we are sending our military to Syria to counter Iran, 
especially because their withdrawal is apparently dependent on 
actions of Iran, not actions of ISIS or the defeat of ISIS. It 
is dependent upon the withdrawal of Iranian forces, not on the 
defeat of ISIS or the withdrawal of ISIS troops or operatives 
from the area. That is what the National Security Advisor has 
stated.
    Secretary Karem. Congressman, the guidance we have been 
given is that we have a conditions-based approach in Syria, and 
that our presence is focused on the enduring defeat of ISIS.
    Mr. Moulton. But that is not what the National Security 
Advisor said. He said that the military presence will last in 
Syria until Iran withdraws its forces. That to me sounds like 
an operation against Iran, which you have just stated is not 
allowed under the Authorization for Use of Military Force.
    Secretary Karem. Congressman, I think if we were conducting 
operations against Iran, that would be the case, but we are 
not. I think what the National Security Advisor and others 
recognize is that as long as Iran continues to pose a threat, 
as along as Iran continues to engage in destabilizing 
activities, as long as it continues to foment sectarianism in 
Syria, it is going to be very difficult to end this war. And 
until that happens, it is going to be very difficult for us to 
secure the conditions to allow for the enduring defeat of ISIS.
    Mr. Moulton. So, Mr. Karem, just to be clear. What you are 
stating is that sending U.S. troops to Syria as part of a 
strategy to deter Iran, and with the guidance that they will 
not be withdrawn until Iran withdraws its forces is not a 
military operation against Iran? If I go and ask those troops, 
``Your mission is to stay here and deter Iran until Iran 
leaves,'' they would say: Yes, that is our mission. We are not 
operating against Iran. We are not here as part of a strategy 
against Iran because, of course, that would be illegal.
    Secretary Karem. Congressman, our forces were sent to Syria 
to defeat ISIS. It is true that there is a residual--there are 
residual----
    Mr. Moulton. Why is their withdrawal, according to the 
National Security Advisor, dependent on Iran withdrawing its 
forces?
    Secretary Karem. I think he is making the analytical 
judgment that----
    Mr. Moulton. This is not an analytical judgment. You are 
telling troops when they can go home. You are telling the 
parents of these troops when they can come home. You know, if 
your son or daughter was in Syria right now and the National 
Security Advisor said, ``Your daughter can come home when Iran 
leaves,'' it seems to me that is pretty dependent on Iran.
    Secretary Karem. The guidance we have been given is that we 
are there to bring about the enduring defeat of ISIS. We are 
proud of the progress that we have made, but we understand that 
there is a tough fight ahead and that the diplomatic effort is 
going to end up being predominant.
    Mr. Moulton. Well, the National Security Advisor has given 
you different guidance. And if that is what the troops are 
hearing--if that is what the American parents and families of 
these troops are hearing, and you have already said that that 
is illegal under the authorization given from Congress, then I 
think the administration has got a big problem.
    I yield back.
    Mr. Conaway [presiding]. The gentleman yields back.
    I recognize myself for 5 minutes. Thank you both for being 
here.
    General, that map that you had, at one point in time, there 
was a particularly significant humanitarian wreck at Al-Tanf. I 
may be mispronouncing it. Are those folks still there? And can 
you give us any kind of an update? You say we have people 
there. Can you give us an update of what the humanitarian 
refugee issue looks like in that enclave?
    General Benedict. Sir, I believe you are referring to the 
Rukban camp. There is about 50,000 IDPs, internally displaced 
persons, in the Rukban camp.
    Mr. Conaway. Are the Syrians allowing humanitarian effort 
coming in from the----
    General Benedict. They are not.
    Mr. Conaway. They are not.
    General Benedict. They are not.
    Mr. Conaway. And so the Jordanians are still in effect 
crane-lifting across that line the humanitarian supplies that 
are getting in there?
    General Benedict. The Jordanians are providing limited 
assistance to the----
    Mr. Conaway. Does the regime explain why they are not--why 
they are making their own people suffer like that?
    General Benedict. Sir, we do not talk directly to the 
regime about it, but, no, there has not been an explanation of 
why they have not allowed a humanitarian corridor to open from 
Damascus to Rukban.
    Mr. Conaway. That is a pretty rugged part of the world, 
temperatures--it is a desert. Would it be fair to say that 
those refugees, those Syrian internally displaced folks are 
under some stress and misery?
    General Benedict. I certainly agree with you that that is a 
rough part of the--a rough area to live in. So I imagine that 
the conditions there would not be----
    Mr. Conaway [continuing]. Ideal.
    General Benedict [continuing]. Very good.
    Mr. Conaway. So does the regime led by Assad have the 
capacity and wherewithal to actually send humanitarian relief 
there if they were of such a mind?
    General Benedict. We definitely believe they do have the 
capacity.
    Mr. Conaway. So there is no physical barriers? There is no 
blocking forces? There is no issue why they wouldn't do that, 
other than he just does not care about his people?
    General Benedict. The U.S. military has not provided any 
inhibition for them providing that.
    Mr. Conaway. And you are not aware of any other outside 
forces between there and Damascus that would physically prevent 
humanitarian aid getting there? That is rhetorical, but--so in 
the southwest corner, our allies with Israel and Jordan have 
said no Iranians in that area. Can you tell if the Iranians are 
abiding by that?
    Secretary Karem. Congressman, I think we would be happy to 
talk in closed session about what we see in southwest Syria. 
They are both clearly very concerned about the threat that 
would be posed by an Iranian residual presence in southwest 
Syria. They have sought to secure the departure of Iranian 
forces through negotiations with the Russians. We do not have a 
presence in that part of Syria, but----
    Mr. Conaway. Our allies do?
    Secretary Karem. Our allies----
    Mr. Conaway [continuing]. Live there?
    Secretary Karem. They are not present on the ground in 
Syria.
    Mr. Conaway. I know, but they are right across the line 
from them.
    Secretary Karem. The regime now controls that territory.
    Mr. Conaway. Thank you, gentlemen.
    I yield back. You get a second bite at the apple before the 
rest of us go.
    Mr. Moulton. I get a second bite of the apple apparently 
because the other Members here are not on the subcommittee.
    Mr. Conaway. All right. I recognize Seth for an additional 
6 weeks.
    Mr. Moulton. I will be brief. Just one question. What kind 
of political end state for Syria does the administration 
envision? How does our military presence support that goal?
    Secretary Karem. And I would refer you to Ambassador 
Jeffrey and Deputy Assistant Secretary of State Rayburn to 
articulate sort of the specific diplomatic strategy and end 
state they envision. They have talked about it consistent with 
the plan or the framework outlined by U.N. Security Council 
Resolution 2254 and a process that is inclusive of all of 
Syrians and allows for full participation. So I would defer you 
to----
    Mr. Moulton. But here is the key question. When I go to the 
Middle East and talk to troops regarding Syria, and I say, 
``Hey, what is your mission? What are you trying to achieve?'' 
and my experience is they will say: ``Well, we are trying to 
take this town back from ISIS. We are trying to take this 
village.''
    And I will say: ``Okay. Well, what happens next?'' In other 
words, that is your immediate tactical mission, but what are 
you trying to--what is the objective that you are trying to 
achieve? Who is going to take over? I mean, a lot of people 
disagree with the war in Iraq, but it was very clear what we 
were doing. We were taking territory back from al-Qaida or 
other insurgent groups or militias or whatever, and we were 
handing it over to the government of Iraq.
    There was a very clear political objective to our strategy. 
You might have disagreed with it, but at least we knew what we 
were trying to achieve.
    What is that political objective in Syria? In the language 
that us here on the committee and that, most importantly, the 
troops on the ground can understand?
    Secretary Karem. So I think General Benedict and I have 
spent a good deal of time talking with some of our forces who 
are out there, and I think they do have an appreciation of what 
we are trying to accomplish. They also have a better 
appreciation I think than we often do of how difficult this is. 
And there are these immediate tactical objectives: retaking the 
next town from ISIS.
    There is the longer-term objective that is tactical but 
blends into the strategic in terms of setting up governance and 
stabilizing liberated areas into our----
    Mr. Moulton. Governance by whom?
    Secretary Karem. Pardon?
    Mr. Moulton. Governance by whom?
    Secretary Karem. Governance by locals. And what our 
military has been facilitating in conjunction with START 
Forward [Syria Transition Assistance Response Team Forward] and 
international partners has been using the Syrian Democratic 
Forces and increasing Arab percentage of them to ensure that 
the towns that have been liberated by ISIS, that security and 
governance is provided by locals, that the governance 
structures that are put in place are responsive to and 
comprised and representative of local populations.
    Mr. Moulton. So we are trying to create----
    Secretary Karem. All of that, though, is then sort of fed 
into this larger political process, which we do not control, 
but we support. And that is about how do we put diplomatic 
pressure on the regime and the Russians to allow for a 
diplomatic process that is inclusive of all of Syria's 
opposition and can resolve the conflict.
    Mr. Moulton. So that is the answer the troops would give?
    Secretary Karem. I think they would see the immediate 
objective of liberating towns and a vast swath of Syria from 
ISIS, and I think they would see a connection to the need for a 
political end state, so that the hard-won military fight that 
our partners have been leading is not for naught, that Iran and 
the regime does not simply plunge across the river and take 
back and repress these same villages from which ISIS sprung in 
the first place.
    Mr. Moulton. So essentially what you are saying is that we 
are going to have local control of all these different villages 
that we tactically take back, sort of like recreating medieval 
Europe in Syria. We do not know what is going to happen with 
the big picture. We do not know who is going to control the 
government. The national leadership of Syria is totally up for 
grabs. We do not have any idea what is happening there or even 
what our goal or objective would be in determining that 
strategy.
    Secretary Karem. Congressman, I think it is similar to your 
experience in Iraq where we were trying to help Iraqis take 
back their towns. The difference is, however, this is taking 
place in a different kind of conflict with a civil war that is 
raging. And we are not prepared to simply abandon our partners 
to the Assad regime. And so we are not seeking to create an 
independent country. We want to use the hard-won military 
victories of the Syrian Democratic Forces as leverage towards a 
diplomatic end state. We cannot promise what that would look 
like. But our presence will help these communities have a 
better shot at securing political negotiation.
    Mr. Moulton. General Benedict, is there anything you would 
like to add to that from the military perspective from the 
troops on the ground in terms of what they are trying to 
achieve?
    General Benedict. Yes. Thank you. So I was just in Raqqa. I 
guess it was about a month or so ago, and really no question in 
my mind that that Green Beret battalion commander understood 
what his mission was: providing stabilization in that area. 
Also, the forces, of course, who are defeating ISIS, it is a 
very clear, you know, operational mission that they understand 
what the intent is.
    I think the last point that Mr. Karem made, you know, is 
particularly important. So, you know, the military mission is 
pretty clear. There was no, at least from my mind from the 
lieutenant up to the lieutenant colonel, any question what they 
were doing there, why they were doing it. And they were seeing 
the results of what they were doing in the stabilization, and 
that then can contribute as part of that leverage to eventually 
get to a political settlement.
    But no question, lasting defeat of ISIS is their mission. 
They understand that. That includes that stabilization to set 
the conditions so ISIS does not come back.
    Mr. Moulton. General, there is no debate from me that they 
understand an operational mission. My question is, what is the 
strategic mission? You know, what are they trying to achieve 
when they succeed with their operational mission? And just to 
use the Iraq analogy again, I mean, I do not think it is very 
consistent because I think, in Iraq, we clearly had a strategic 
goal, a strategic political goal.
    Remember, we had this big debate: Maybe we should divide 
Iraq into three parts, or maybe we should just have one central 
government. We resolved that debate. Not everybody agreed with 
how we resolved it, but we knew what we were trying to do was 
empower a central government in Iraq. So that is my question. 
And I guess your answer, General, is simply that they know that 
they are creating stability to support some sort of future 
government?
    General Benedict. Well, yes, sir. And as mentioned, you 
know, the efforts of Ambassador Jeffrey is to get this back 
into the Geneva. And part of that process of having the 
discussions to get the players to the table, our activities and 
the success that we have had, not only providing for the defeat 
of ISIS, the most successful operations that are being 
conducted in Syria against violent extremists, but also the 
success that we are having locally with setting up--supporting 
the local governments, supporting their reconstruction, 
stabilization, return of services, that type of leverage does 
play into the negotiations that Ambassador Jeffrey has to drive 
towards a political solution.
    So I believe that they can see through that operational 
perspective and see the value of the effort that they are doing 
towards a larger political goal.
    Mr. Moulton. General, I recognize that this is a very 
difficult situation, and in some ways you and your troops are 
in an impossible position. I think having some clarity on that 
strategic objective, rather than just sort of creating the 
conditions for some sort of government, would be helpful. 
Helpful to us and also helpful to the troops on the ground. But 
thank you for what you are doing.
    Mrs. Hartzler [presiding]. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Madam Chair. I am not sure how much 
influence we have in the political process in Syria, and I am 
pretty sure we have very little, if any, control over it. I do 
have questions that would not be--you could not answer in this 
setting that I will save for the next one. But I do have a 
question for you, Mr. Secretary.
    Getting back to the issue of the authorization, it seems 
that because ISIS is in Syria, that is how we justify being 
authorized to operate in Syria. Is that correct?
    Secretary Karem. That is correct.
    Mr. Scott. How many countries is ISIS in?
    Secretary Karem. Off the top of my head, I could not tell 
you. I think the reality has been that the largest 
preponderance of ISIS fighters have been contained in Iraq and 
Syria. It is where they established territorial control. They 
have operated more under the radar, hiding in populations in 
other countries. So there is a difference in terms of the 
unique situation we found ourselves in in 2014, where ISIS took 
over what was basically a swath of territory the size of 
Indiana.
    Mr. Scott. So it is territorial control then that the 
legality of the authorization is based on, not the fact that 
ISIS is there?
    Secretary Karem. No, I think it is the territorial control 
that ISIS had that facilitated or led to certain types of 
military operations rather than more intelligence or law 
enforcement activities. We also no longer had governance 
structures in western Iraq or eastern Syria. We were welcomed 
into Iraq by the Iraqi Government, which explains some of the 
legal parameters of our operations there. But, in Syria, the 
previous administration and this administration has continued 
to rely on the 2001 AUMF to conduct its operations. This has 
been amplified by specific authorities the Congress has 
provided us to provide support to our local partners, the 
Syrian Democratic Forces, for example, which is authorized in 
statute.
    Mr. Scott. So just--I do not think there was ever a win in 
Syria, I mean, just looking at things, and for the United 
States, I mean, it just--it was like a kaleidoscope; every time 
one thing changed something else changed. The Russians clearly 
already had the high ground. And, I mean, just looking at the 
scenario, I want to go back to where--we are obviously there. 
We--the issue of the legality of us being there is based on 
ISIS being there. And just hypothetically, if we follow that 
through--if ISIS is in--just a hypothetical number, just say 20 
countries, do we then have the authorization to go into all of 
those 20 countries?
    Secretary Karem. I think we would have to take a look case 
by case at the situation on the ground. What was the capacity 
of the individual country to take action.
    Mr. Scott. Can I ask you to follow up--when you say ``we,'' 
do you mean Congress or the administration?
    Secretary Karem. The United States writ large. And I think 
our operations, our activities, have been conducted often in 
large consultation with the Congress. Our efforts to support 
local governments in fighting ISIS, we cannot do without 
explicit authorities and support from the Congress. Moneys that 
are appropriated for our train-and-equip efforts, for example, 
are provided by the Congress and overseen by the Congress.
    Mr. Scott. I think that--I think, respectfully, I think 
some of that might be debatable, but I do--I am concerned that 
future administrations, I am close to this administration, the 
idea that just because an organization by a certain name is in 
a country, that that gives us the ability to say: Well, because 
they are there, I have got the authorization to go do whatever 
I want to in that country.
    And I am very concerned about the authorizations, and I 
think it deserves further discussion.
    But I have some very specific questions, but I will yield 
any remainder of time that I have for the next setting.
    Mrs. Hartzler. Thank you for yielding back your 14 seconds. 
Appreciate that.
    Representative Gabbard.
    Ms. Gabbard. Thank you, Madam Chair. Thank you, gentlemen.
    It has been estimated by several sources and confirmed by 
General Dunford publicly that there are approximately 20,000 to 
30,000 al-Qaida terrorists and other jihadist terrorists that 
are holed up and in control of the city of Idlib in Syria. We 
have recently heard just in the last several days threats from 
your administration of, quote/unquote, dire consequences for 
any military offensive by Syria, Russia, or Iran against these 
al-Qaida terrorists in Idlib. James Jeffrey stated that the 
U.S. will not tolerate, quote, ``an attack, period, and that 
any offensive is to us objectionable as a reckless 
escalation.''
    So, considering the fact that, Mr. Karem, you have noted 
many times just in this hearing that our troops are in Syria 
operating under the Authorization to Use Military Force that 
was passed after al-Qaida attacked us on 9/11 and that we are 
supposed to be at war with al-Qaida, my question is, how is it 
in the national security interest of the United States that 
rather than going after al-Qaida and defeating al-Qaida, the 
United States is making these threats and essentially acting as 
the protectors of al-Qaida in Idlib, in Syria, and these other 
terrorist groups? How is this not a complete kick in the face 
and an insult to the American people, all of those lives who 
were lost on 9/11, first responders, our troops, their 
families, everyone who has sacrificed so much?
    Secretary Karem. Congresswoman, I would strongly dispute 
the notion that we are protecting al-Qaida in Idlib, that we 
are protecting al-Qaida in any faction.
    Ms. Gabbard. How can you dispute this when all indications, 
if you follow this path and this trail, in reality, that al-
Qaida and other terrorist groups are in control of Idlib today? 
And our government has threatened any of these other countries 
who are--have talked about attacking these terrorist groups in 
Idlib. How can you see it in any other fashion?
    Secretary Karem. We will be happy to talk about some of the 
dynamics in Idlib in closed session.
    Ms. Gabbard. Do you dispute those numbers that General 
Dunford has confirmed publicly?
    Secretary Karem. I think those numbers may refer to a 
global ISIS number, but we----
    Ms. Gabbard. He was very specific. He was very specific to 
say 20,000 to 30,000-plus al-Qaida and other terrorist groups 
in control of Idlib.
    Secretary Karem. There is no dispute that Idlib has become 
a hornet's nest of multiple terrorist organizations. 
Regrettably, this is the product of the Russian and regime 
approach to consolidating control on the ground in Syria. They 
have used de-escalation zones and local negotiated deals to 
purge areas in Syria and have used Idlib as a dumping ground. 
And they have allowed the free transit of the worst terrorists 
to go to Idlib.
    Ms. Gabbard. And the fact is, and I have asked this 
question of many of our other both civilian and military 
leaders over the last few years, both in the previous 
administration and in this administration, the fact is that the 
United States Government and military has not made a concerted 
effort to go after al-Qaida early on in Syria as they have with 
ISIS.
    Before my time is expired, I want to ask about Iran and 
follow up to some of the questions that were asked earlier with 
regard to the fact that in Iraq and Syria, Iran has more 
influence in those two countries today than ever before in 
recent history. And since it is apparently not in our national 
security interest to have Iran's influence in that region 
expanded, would you agree that our policies in these countries 
have resulted in the exact opposite of what would be in our 
national security interest with Iran having a stronger presence 
there than they did specifically in Syria prior to 2011?
    Secretary Karem. I am not sure that I follow that our 
specific activities are the reason that Iran has more 
influence.
    Ms. Gabbard. Prior to our invasion to Iraq, Iran had less 
influence there than after.
    Secretary Karem. I think there are----
    Ms. Gabbard. In Syria, prior to 2011, when this war broke 
out to overthrow the government and our support for that, along 
with Saudi Arabia and Qatar and other countries, Iran had far 
less of a presence and far less influence in Syria than they do 
today.
    Secretary Karem. Regrettably, Iran's presence and influence 
in Syria and Lebanon and across the region predates the war----
    Ms. Gabbard. Would you not agree that they have far more of 
a presence and influence today than before?
    Secretary Karem. I think their influence in Syria has far 
more to do with the Syrian civil war than it does----
    Ms. Gabbard. I am just asking a simple question of whether 
or not they have more of a presence and influence today than 
before 2011?
    Secretary Karem. Sure, but it has nothing to do--little to 
do with our policies so much as it does with the Syrian civil 
war and the relation with Bashar al-Assad.
    Mrs. Hartzler. Time is expired. Thank you.
    Mr. Gallagher.
    Mr. Gallagher. Thank you. Given that Russia--I would like 
to pull the string on the Russia angle a little bit. Given that 
Russia has leased ports and air bases for, in some cases, five 
decades--and I apologize if this was already covered--to me 
that suggests this is about far more than just shoring up 
support for the Assad regime, that Russia has a sort of a 
broader regional play in mind.
    What is your assessment of Russia's long-term goals and 
objectives in Syria and in the eastern Mediterranean?
    Secretary Karem. I think there is a debate in the 
analytical community about whether Russia does have long-term 
strategies or relies on short-term tactical improvisation. I 
would agree that I think they are looking simply beyond just 
shoring up Bashar al-Assad and are utilizing their newfound 
influence and presence in Syria for diplomatic leverage and 
influence to undermine the United States, to project power into 
the eastern Mediterranean. We can talk more about some of this 
in closed session, but I think it is unquestionable that 
Russia's intervention in Syria has changed the trajectory of 
that conflict, and very much complicated the situation. 
Regrettably, at every turn they have chosen not to be partners 
in trying to end the conflict through peaceful negotiations, 
but instead have complicated the political situation on the 
ground with their full-throated support for the Assad regime 
and willingness to partner with Iran on the ground.
    Mr. Gallagher. I hope in closed session we can dig in 
deeper to the nature of that partnership, particularly as it 
pertains to any operational coordination between Russia and 
terrorist proxies and Hezbollahis deployed to Syria.
    But, General Benedict, I do not know, to the extent 
possible in open session, obviously, the Russians have deployed 
S-300s and S-400s to Syria since at least 2006, but in the last 
few weeks, we have heard that S-300s are being transferred to 
the Assad regime.
    Can you just give us an assessment of what that means, if 
anything, for our ability to conduct operations, and by 
extension, does that place limits on our allies, the Israelis 
in particular, their ability to conduct operations in and 
around Syrian air space?
    General Benedict. I think I would like to take most of the 
details of the question about both our operations or our 
partners into the closed session. But I think what I would say 
is that the introduction of more of these systems in there only 
serves to create more unstable conditions and the likelihood of 
miscalculation that we--such as which we tragically saw earlier 
in the week with the Russian plane being shot down by the 
Syrians.
    So I think that my greatest concern is that the more things 
that we are putting into this small area, particularly as we 
are starting to close in the north part of Syria, the more 
dangerous the entire situation becomes because of the 
instability.
    Mr. Gallagher. I can also see a scenario in which it might 
limit our options, if, for example, Russian personnel were in 
an area and we were contemplating taking action, we might be 
more loath to do so as a result of the introduction of such 
technology and associated forces necessary to operate it.
    To just quickly on what my colleague Mr. Scott was talking 
about, the National Security Advisor, Ambassador Bolton, has 
said any potential third strike on the Assad regime would be, I 
think he used the term, qualitatively different in nature, 
meaning that this would be--there would be some sort of 
escalation of force.
    If a strike would be of a greater magnitude, qualitatively 
different, does the administration still intend to use--to rely 
mostly upon the 2001 AUMF and this sort of grab bag of 
authorities that you referenced earlier, or would it be 
interested in seeking a new authorization for the use of 
military force in Syria.
    Secretary Karem. I think Secretary Mattis would not want us 
to opine on hypothetical or operational matters.
    Mr. Gallagher. But it would be fun to do so right now.
    Secretary Karem. Not fun for me when I get back to the 
Department. I would say that the administration has produced 
and provided public Office of Legal Counsel assessment of its 
legal authorities under which it operated in the April strike 
that I would refer you to that speaks at length to the 
authorities it has to respond to the previous use of chemical 
weapons.
    Mr. Gallagher. My concern with the reasoning laid out in 
that document is that you are placing a lot of weight on the 
inherent constitutional authority of the Commander in Chief to 
conduct foreign relations. But as anyone knows, the 
Constitution vests enormous war declaration and war-making 
authority in the Congress of the United States. So I think 
there are many of us here that would suggest that we have 
stretched the logic beyond the bounds of recognition. And I 
think there is a bipartisan interest in doing something about 
it. And I recognize fully that ultimately this is not 
necessarily the fault of the executive branch. Executive 
branches always tend to aggregate power wherever they can. It 
is the fault of Congress' unwillingness to do its basic duty.
    And I have run out of my time. I apologize.
    Mrs. Hartzler. Thank you.
    Mr. Gallego.
    Mr. Gallego. Thank you. Mr. Karem, let's go back to Russia. 
I heard some things I just--that kind of astound me. Russia's 
goals have always seemed clear to me and has been since the 
1800s: warmwater port, warmwater port, make sure you keep 
Turkey off the sidelines and destabilize their alliances to us, 
which, by the way, at this point seems is what they got. What 
else do they want, and what else do they have? As far as they 
were propping up a puppet, they still have their puppet. They 
now will continue to have free access to the Mediterranean 
military resources they had before. But more importantly, what 
they are getting right now is they are tying us down to what 
seems to me to be a war or operation, whatever you want to call 
it, that has no end, which eventually just starts sucking away 
at our resources that we need to take care of the interests 
that we really care about, which from my understanding 
historically are continued freedom of the seas, continued 
rejection of human rights violations, counterterrorism, and 
defense of Israel.
    How are we not actually basically falling into the Russian 
traps by basically continuing to, you know, basically engage in 
this quagmire without an end and actually end up rejecting some 
of these other interests that are actually important to the 
United States?
    Secretary Karem. So I think it is regrettable that Russia's 
behavior in Syria has complicated this conflict and made a 
political resolution more complicated. But I do not think it 
has necessarily tied us down. In fact, I think if you compare 
the success that the United States and its partners have had in 
defeating ISIS and liberating territories in areas where we 
have operated in Syria with Russia and the regime's efforts 
against ISIS and al-Qaida, I think we stack up remarkably well. 
In fact, it is what we are focused on.
    Mr. Gallego. We are further separated from Turkey as our 
NATO allies since the start of this war. They still have the 
warmwater port they had before, and they still have Assad, but 
at the same time, we are clearly not getting out of there any 
time soon, and, at the same time, also taking our interests off 
the balls in other areas.
    On all scopes of this, we are losing right now in terms of 
protecting our overall interests outside of Syria. That aside, 
let me just leave that there. Right now, I would like to ask 
another question. The Department is not authorized to fight the 
Syrian Government. Is that correct?
    Secretary Karem. We are not intervening in the Syrian civil 
war. We do not have the authority.
    Mr. Gallego. What is being done to ensure that U.S. forces 
or funds are not being used to engage in hostilities when it 
comes to the Syrian Government--with the Syrian Government?
    Secretary Karem. Can you restate the question?
    Mr. Gallego. The Department is not authorized to fight the 
Syrian Government. What is being done to ensure that U.S. 
forces or funds are not being used to engage in hostilities 
with Syrian Government forces?
    Secretary Karem. I think Congress has been fairly explicit 
with us in terms of how we allocate our funds and the vetting 
procedures we use with respect to training and equipping, which 
we report on a regular basis, both the procedures we use to vet 
as well as the activities of our partners. That is one example 
of how carefully we adhere to the restrictions that Congress 
has placed on our authorities in Syria.
    Mr. Gallego. And to engage in a hypothetical, if you can: 
You know, much like Congressman Moulton, I also served in Iraq 
and played a lot of whack-a-mole all through actually Haditha, 
Al Qa'im, and a lot of cities actually that are on these maps 
today. The last thing I want to see is other young men and 
women playing whack-a-mole indefinitely through the Syrian 
plains.
    What is the definition of true defeat against ISIS if our 
operational--if our orders are to be there until ISIS is 
defeated, what does that actually mean in Syria? Because what I 
am interpreting it as right now is we may actually defeat ISIS 
and actually destroy the functionality of ISIS, but there seems 
to be this other element where because the idea of ISIS may 
exist, that is the pretext of why we should stay in Syria when 
in fact it is just for us to, you know, buffer against Iran, 
which if that is the case, then you should come back to 
Congress and actually ask for that authorization.
    Secretary Karem. I think the last thing that we want is to 
continue simply playing whack-a-mole. And we want to avoid the 
mistakes that we have made in the past and ensure that what we 
leave behind in Syria and Iraq means that U.S. service men and 
women are not going to have to come back and fight an even more 
dangerous enemy. But this is why the political resolution of 
the conflict, it is why the political and security developments 
of the Iraqi Government are so important. And it is why we do 
what we can as the U.S. military to be connected to the State 
Department's activities, whether that is to help the Iraqis 
develop their security forces and governance capacity or 
whether it is to facilitate a political end to this conflict in 
Syria. We need to see local security forces who are 
representative of and respectful of local populations, who can 
keep control. And, unfortunately, we do not see an indication 
that the Assad regime is going to result in that kind of 
stability.
    Mrs. Hartzler. Okay. Well, votes are going to be at 4:45 to 
5:00, and so this is going to conclude the open portion of this 
afternoon's hearing. And we will walk upstairs to 2216 for a 
classified discussion. We will adjourn for 3 minutes and then 
promptly reconvene. Thank you very much.
    [Whereupon, at 4:40 p.m., the subcommittee proceeded in 
closed session.]

     
=======================================================================

                           A P P E N D I X

                           September 26, 2018
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 26, 2018

=======================================================================

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 26, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. SUOZZI

    Mr. Suozzi. What are we doing to update and modernize DOD's policy 
and guidance pertaining to information operations so that commanders in 
the field have clear guidance on what they can do to influence the 
information environment? We are losing the information war because of 
bureaucracy--there are fewer rules and regulations governing a 
commander's decision to use of munitions than send a tweet. What is 
being done to fix this problem and enable our commanders on the ground 
to more effectively conduct full-spectrum operations?
    Secretary Karem. As part of the execution of Section 1637 of the 
National Defense Authorization Act for 2018, the Secretary has 
designated the Undersecretary of Defense for Policy (USD(P)) as the 
Designated Senior Official to oversee the integration of strategic 
information operations and cyber-enabled operations. The USD(P) is also 
the Principal Staff Advisor for Information Operations (IO). In these 
roles, the USD(P) is assessing communication-related policy (e.g.--
Military Information Support Operations (MISO) policy, IO policy, and 
others) to ensure DOD operations in the information environment are 
agile and effective, while remaining compliant with applicable laws. 
DOD routinely delegates authority to subordinate commanders to conduct 
MISO over all mediums, to include the internet. Outside of areas of 
active conflict, commanders must coordinate IO with relevant chiefs of 
mission. DOD has sufficient authorities to operate in the information 
environment, but will continue to adapt authorities to contemporary 
needs.
    Mr. Suozzi. Secretary Karem, do we have an information operations 
strategy in Syria? The Russians and Iranians are very active in the 
Syrian information environment promoting disinformation about the 
United States, and our allies, while promoting their activity and the 
Assad regime. What are we doing to counter the disinformation campaigns 
that the Russians and Iranians are waging against the U.S. and our 
allies?
    Secretary Karem. [The information is classified and retained in the 
committee files.]

                                  [all]
</pre></body></html>
